<html>
<title> - THE GREAT LAKES REGIONAL COLLABORATION STRATEGY: CAN IT BE IMPLEMENTED TO RESTORE AND PROTECT THE GREAT LAKES?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 THE GREAT LAKES REGIONAL COLLABORATION STRATEGY: CAN IT BE IMPLEMENTED 
                TO RESTORE AND PROTECT THE GREAT LAKES?

=======================================================================

                                (109-96)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                              _____

                    U.S. GOVERNMENT PRINTING OFFICE

30-666 PDF                  WASHINGTON : 2007
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001










             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)













            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         JOHN T. SALAZAR, Colorado
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               BRIAN BAIRD, Washington
RICHARD H. BAKER, Louisiana          TIMOTHY H. BISHOP, New York
ROBERT W. NEY, Ohio                  BRIAN HIGGINS, New York
GARY G. MILLER, California           ALLYSON Y. SCHWARTZ, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  EARL BLUMENAUER, Oregon
BILL SHUSTER, Pennsylvania           ELLEN O. TAUSCHER, California
JOHN BOOZMAN, Arkansas               BILL PASCRELL, Jr., New Jersey
JIM GERLACH, Pennsylvania            RUSS CARNAHAN, Missouri
TOM OSBORNE, Nebraska                NICK J. RAHALL, II, West Virginia
TED POE, Texas                       ELEANOR HOLMES NORTON, District of 
CONNIE MACK, Florida                 Columbia
LUIS G. FORTUNO, Puerto Rico         JOHN BARROW, Georgia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
JEAN SCHMIDT, Ohio
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)
























                                CONTENTS

                               TESTIMONY

                                                                   Page
 Ambs, Todd, Water Division Administrator, Wisconsin Department 
  of Natural Resources...........................................     9
 Becker, Hon. Gary, Mayor, City of Racine, Wisconsin, and Vice 
  Chair, Great Lakes and St. Lawrence Cities Initiative..........     9
 Berwick, Brigadier General Bruce A., Commander, Great Lakes and 
  Ohio River Division, U.S. Army Corps of Engineers..............     9
 Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  U.S. Environmental Protection Agency...........................     9
 Scavia, Donald, Professor and Associate Dean, School of Natural 
  Resources and Environment, Director, Michigan Sea Grant, 
  University of Michigan.........................................     9
 Wooley, Charles, Deputy Regional Director, U.S. Fish and 
  Wildlife Service, U.S. Department of the Interior..............     9

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    66
Ehlers, Hon. Vernon J., of Michigan..............................    69

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Ambs, Todd......................................................    36
 Becker, Hon. Gary...............................................    56
 Berwick, Brigadier..............................................    61
 Grumbles, Hon. Benjamin H.......................................    70
 Scavia, Donald..................................................    83
 Wooley, Charles.................................................   132

                       SUBMISSIONS FOR THE RECORD

 Ambs, Todd, Water Division Administrator, Wisconsin Department 
  of Natural Resources:

  Letter to Hon. George V. Voinovich, Senator from Ohio, from 
    Hon. Jim Doyle, Governor of Wisconsin, and chair, Council of 
    the Great Lakes Governors, and Hon. Richard M. Daley, Mayor, 
    City of Chicago, Chair, Great Lakes and St. Lawrence Cities 
    Initiative, March 10, 2006...................................    44
  Letter to President George W. Bush, from Hon. Jim Doyle, 
    Governor of Wisconsin, and chair, Council of the Great Lakes 
    Governors, Hon. Robert Taft, Governor of Ohio, and Chair, 
    Council of the Great Lakes Governors, and Hon. Richard M. 
    Daley, Mayor, City of Chicago, Chair, Great Lakes and St. 
    Lawrence Cities Initiative, December 12, 2005................    47
  Great lakes Regional Collaboration Near Term Action Items, 
    report.......................................................    49

Ehlers, Hon. Vernon J., a Representative in congress from 
  Michigan:......................................................

  Letter, Peter M. Wege, Wege Foundation, August 8, 2006.........     7
  Letter, Hon. Gerald R. Ford, former President of the United 
    States of America, July 26, 2006.............................     8

 Grumbles, Hon. Benjamin H., Assistant Administrator for Water, 
  U.S. Environmental Protection Agency, supplemental information.    80
 Scavia, Donald, Professor and Associate Dean, School of Natural 
  Resources and Environment, Director, Michigan Sea Grant, 
  University of Michigan, Prescription for Great Lakes Ecosystem 
  Protection and Restoration: Avoiding the Tipping Point of 
  Irreversible Changes, December 2005, report....................    93

                        ADDITIONS TO THE RECORD

Buchsbaum, Andy, Director, Great Lakes Office of the National 
  Wildlife Federation, Co-Chair, Healing Our Waters---Great Lakes 
  Coalition, statement...........................................   136
 O'Shea, Kevin, Minister, Political Affairs, the Government of 
  Canada, letter, September 27, 2006.............................   163
Zorn, James E., Executive Administrator of the Great Lakes Indian 
  Fish and Wildlife Commission, statement........................   151





















 
 THE GREAT LAKES REGIONAL COLLABORATION STRATEGY: CAN IT BE IMPLEMENTED 
                TO RESTORE AND PROTECT THE GREAT LAKES?

                              ----------                              


                          September 13, 2006,

        Committee on Transportation and Infrastructure, 
            Subcommittee on Water Resources and 
            Environment, Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable John J. 
Duncan, Jr. [chairman of the subcommittee], presiding.
    Mr. Duncan. Good morning. We are going to go ahead and call 
this hearing to order. I understand that Ms. Johnson is on her 
way.
    I want to welcome everyone to our hearing on the Great 
Lakes Regional Collaboration Strategy. In this hearing, we will 
look at how the Strategy is serving as a framework for 
restoring and protecting the Great Lakes.
    Today we will hear from several important participants in 
implementing the Strategy: the Environmental Protection Agency, 
the Fish and Wildlife Service, the Army Corp of Engineers, the 
Great Lakes region's governors and mayors, and the academic 
community.
    The Great Lakes are a high priority to our Members from 
Minnesota, Wisconsin, Michigan, Illinois, Indiana, Ohio, 
Pennsylvania, and New York, particularly in the districts that 
border the Lakes. However, the Great Lakes are also very 
important to our entire Nation. With 6 quadrillion gallons of 
water, the Great Lakes account for 18 percent of the world's 
fresh water supply and 95 percent of the U.S. fresh water 
supply, 95 percent of the U.S. fresh water supply. Over 33 
million people live in the Great Lakes region, representing 
over one-tenth of the U.S. population and one-quarter of the 
Canadian population. The Lakes are the water supply for most of 
these people.
    The Great Lakes help support $200 billion a year in 
economic activity in the region, including 50 percent of the 
U.S. manufacturing output, 30 percent of all U.S. agricultural 
sales, and transportation of 50 million tons of waterborne 
cargo, half of which is exported overseas. Recreational 
benefits in the Great Lakes region amount to over $35 billion 
in economic activity and over 246,000 jobs.
    Like many ecosystems around the Country, the Great Lakes 
have been impacted by industrial growth, urban development, and 
agricultural and commercial activity. While most areas of the 
Great Lakes can be used safely for swimming, recreation, and as 
a source of drinking water, the Lakes do not fully support 
aquatic life and it is not always safe to eat the fish caught 
in the Great Lakes. These water quality problems have a variety 
of causes. Part of the problem is from ongoing wastewater 
discharges, urban and agricultural runoff, and air pollution, 
the same problems faced by lakes, rivers, and bays all around 
the Country.
    The Great Lakes present a unique environmental challenge. 
Because they are nearly enclosed water bodies, with limited 
outflow, toxic substances have built up in the Lakes, sinking 
to the bottom and contaminating lake sediments. In 2002, this 
Subcommittee and full Committee moved legislation introduced by 
Congressman Ehlers, our colleague, legislation entitled ``The 
Great Lakes Legacy Act,'' to help jump-start remediation of 
contaminated sediments in the Great Lakes. President Bush 
signed this legislation into law in November of 2002. The 
Legacy Act is one of many tools available for addressing 
ecosystem restoration in the Great Lakes.
    Invasive plant and animal species also are impacting the 
Great Lakes. There are at least 25 major non-native species of 
fish in those bodies of water. Zebra mussels invade and clog 
water intake pipes, costing water and electric generating 
utilities $100 to $400 million a year in prevention and 
remediation efforts. It is said that invasive species are 
discovered at the rate of one every eight months.
    Efforts to improve Great Lakes water quality and restore 
the health of the Great Lakes ecosystem are proceeding through 
cooperative efforts with Canada as well as through the efforts 
of numerous Federal, State, local, and private parties. The 
EPA, the Army Corps of Engineers, Fish and Wildlife Service, 
National Oceanic and Atmospheric Administration, U.S. 
Geological Survey, Natural Resources Conservation Service, 
Great Lakes States, local communities, industry, and a lot of 
other parties are involved. With so many parties involved in 
trying to restore the Great Lakes, coordination of the effort 
can sometimes be difficult.
    To improve coordination, on May 18th, 2004, the President 
signed an Executive Order creating the ``Great Lakes 
Interagency Task Force.'' The Executive Order called for the 
development of outcome-based goals like cleaner water, 
sustainable fisheries, and system biodiversity. The President 
called on the Task Force to ensure Federal efforts are 
coordinated and targeted toward measurable results. The Task 
Force, under the lead of the EPA, brings together 10 Federal 
agencies responsible for administering more than 140 different 
programs in the Great Lakes region, to provide strategic 
direction on Federal Great Lakes policy, priorities, and 
programs for restoring these great bodies of water.
    In December 2004, under the leadership of the Federal Great 
Lakes Interagency Task Force, the Great Lakes States, cities, 
tribes, non-governmental organizations, and other interests 
formed a group now known as the Great Lakes Regional 
Collaboration. The Collaboration was formed to develop a 
strategic plan to restore and protect the Great Lakes. In 
December of 2005, the Collaboration released a Strategy 
recommending eight critical areas to address to restore these 
areas. These eight areas include coastal health, toxic 
pollutants, areas of concern, nonpoint source pollution, 
invasive species, habitat and native species restoration, 
information research, and sustainable development.
    I look forward to discussing the Strategy's recommendations 
and hearing from the witnesses how the various Federal, State, 
local, and other parties plan to implement these proposals.
    Let me now turn to the Ranking Member, Ms. Johnson, for any 
remarks she may wish to make.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    This Subcommittee has had a long history of oversight on 
the ecological and environmental health of the Great Lakes. 
Over the past three decades, the Subcommittee has held numerous 
hearings and has investigated and proposed legislation to 
address Great Lakes water quality impairment, contaminated 
sediments and other sources of pollution for the Lakes.
    While some improvements have been made, after almost 20 
years of effort, we have not seen significant progress toward 
the long term sustainability of the Lakes. In fact, according 
to scientists, quite the opposite is true. The Great Lakes are 
hovering near the tipping point, toward total ecosystem 
breakdown.
    Today's hearing will focus on the recently-developed 
strategy to address the continued environmental stressors to 
the Lakes, as well as on coordinating Federal, State and local 
efforts to restore and protect this vital natural resource.
    As the then-General Accounting Office noted in a 2003 
report, more coordinated efforts and funding are needed. 
Otherwise, the Nation will witness further degradation within 
the Great Lakes community. Unfortunately, this Administration 
has chosen to abandon the more difficult task of funding 
restoration efforts. While recent efforts to develop a 
strategic plan for restoration and protection of the Lakes 
should be applauded, without a corresponding commitment to fund 
these efforts, the Collaborative Strategy will little more than 
another dusty restoration plan on the shelf.
    One has to question whether this Administration has used 
the roll-out of the Collaborative Strategy to divert attention 
away from its failure to fund restoration efforts. For example, 
the Administration lauds its decision to increase funding for 
certain programs, such as the Great Lakes Legacy Act, but fails 
to mention the even larger decreases in programs such as the 
Clean Water State Revolving Fund, that are of equal if not 
greater importance to overall restoration efforts. In the end, 
it is clear that this Administration has chosen to walk away 
from any real commitment to Great Lakes restoration efforts.
    Unfortunately, Mr. Chairman, these restoration efforts in 
the Great Lakes have been made more difficult by a recent 
Supreme Court decision which at least confuses the scope of the 
Clean Water Act, and at worst severely limits its protective 
reach. Although the real world impact of the Rapanos case is 
still an open question, one thing is certain: limiting the 
scope of waters protected by the Clean Water Act will result in 
more pollution, more fish kills, more beach closings, more 
degraded habitat and increased risk of flooding from the 
destruction of the wetlands.
    According to EPA's wadeable streams assessment, roughly 50 
percent of the waters that potentially drain into the Great 
Lakes already have high to medium impacts from the nutrients 
from the riparian disturbance and excessive sediment. 
Presumably, some of the Supreme Court would advocate the 
elimination of protection for these already impaired waters and 
simply hope that these waters and the Great Lakes restore 
themselves.
    Mr. Chairman, if the reasoning contained in Justice 
Scalia's opinion prevails, we will be able to point to June 
19th, 2006, as the day when Federal efforts to protect water 
quality ceased to exist. If this were true, perhaps those 
prophetic statements on waters being as clean as they will ever 
be may come to pass. I hope that for our sake and for the sake 
of future generations that this does not happen.
    Clearly, significant challenges remain in this Nation's 
efforts to restore and protect the Great Lakes. I am pleased 
that this Subcommittee will expose these issues and hope that 
the witnesses invited to testify will be able to identify the 
successes as well as the failures in these efforts, and on ways 
we can improve our efforts.
    I welcome the witnesses here today and look forward to 
their testimony. Thank you.
    Mr. Duncan. Thank you very much, Ms. Johnson.
    This Subcommittee has been interested in the Great Lakes 
for quite some time. And as both Ms. Johnson and I mentioned, 
we passed the Great Lakes Legacy Act and we dealt with that in 
2001 and 2002, then we held two hearings in May of 2004 and 
then a field hearing, a meeting at Mayor Daley's request in 
June of 2004 in Chicago.
    But certainly the member of the entire Congress who has 
been most active in regard to Great Lakes issues and has always 
done the most to bring some of these matters to our attention 
is our colleague, Congressman Ehlers, from Michigan. I would 
like to call on him at this time for any statement he wishes to 
make.
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing. Thank you also for your 
statement which you just made, because in fact you and this 
Subcommittee have been the most active, as you said, of any 
committee or subcommittee in the House.
    I would also like to take just a moment to disagree 
slightly with my good friend from Texas, the gentlewoman from 
Texas, about her comment on the Administration. As the Chairman 
remarked, when we passed the Legacy Act, I was very pleased 
that the President, every year since then, has in his budget 
recommended maximum funding for that program, funding equal to 
the authorization. Unfortunately, our Appropriations Committee 
has not done as well. But the President certainly did his 
share.
    The other fact I would like to mention, that the 
Administration has been very active in, I worked with Governor 
Leavitt when he was Director of the Environmental Protection 
Agency and since then have worked with Steve Johnson, who now 
has that task. Through their efforts, the President had issued 
a call for a Great Lakes Regional Collaboration with an 
executive order. That has been carried through and is one of 
the most outstanding guidances we have at this point, and is a 
subject for our hearing.
    I am extremely pleased that today we are talking about 
Great Lakes protection and restoration. A great deal has 
happened, as I just said before, since the last hearing we had 
on this topic in 2004. It has been a very busy and most 
productive time. I am eager to hear from our witnesses about 
what they have been doing recently, and more importantly, about 
the next steps they have planned. I am also interested in 
hearing about what role Congress has to play in this. As you 
know, I have introduced a bill to try to implement all the 
recommendations of the Great Lakes Regional Collaboration. I am 
very anxious to have that bill passed.
    I have modeled it after the same process that we used for 
the Chesapeake Bay and for the Everglades. I think those have 
been successful efforts. Many of you have been involved in both 
of those and we are trying to model the Great Lakes approach 
under that.
    The Federal, State and local officials and policy makers, 
as well as advocates and experts involved in the Great Lakes 
Regional Collaboration have done a tremendous job of setting 
out a comprehensive strategic action plan for making all the 
waters of the Great Lakes swimmable, potable and fishable, all 
the time, everywhere. My staff and I were very closely involved 
in the work of the Regional Collaboration. I am eager to see 
its recommendations implemented as soon as possible.
    That is why I introduced H.R. 5100, the bill I just 
mentioned, which will put in place many of the legislative 
changes that are necessary to improve and expand Federal 
programs to clean up and protect the Lakes. This bill has more 
than 50 co-sponsors, including several members of this 
Subcommittee. I hope we can take up that bill soon, Mr. 
Chairman.
    The longer we wait to implement the recommended changes, 
the more expensive and more complicated the solutions become. 
This is particularly true in two areas: preventing further 
introduction of aquatic invasive species, as the Chairman has 
just mentioned, and also cleaning up contaminated sediments in 
areas of concern. I am very interested in hearing from the 
witnesses on these two critical issues.
    I also want to emphasize here at the outset of the hearing 
that the Regional Collaboration Strategy should be used as it 
was intended, not just as a wish list of program changes and 
funding levels, but as a strategic action plan to guide 
resource allocation, policy decision making and priority 
setting. That is why we have structured my bill as indicated.
    Finally, Mr. Chairman, let me bring one other matter to the 
Committee's attention. During the August recess, I received a 
letter from Peter Wege, a philanthropist in West Michigan who 
has been very active in Great Lakes policy. The Wege Foundation 
was instrumental in founding and supporting the Healing Our 
Waters Coalition, an alliance of more than 80 environmental and 
conservation organizations in and around the Great Lakes Basin. 
Mr. Wege sent to me a letter from another old friend, former 
President Gerald Ford. As you know, he represented the same 
area in and around Grand Rapids, Michigan that I now have the 
pleasure of representing. The Great Lakes are dear to him and 
he recognizes their national and international importance. 
President Ford wrote in his letter that the Great Lakes 
enriched his life and that he shares my commitment to restoring 
and protecting the Lakes for our children and grandchildren.
    I would like to request that it be made an order to submit 
a copy of the letter from President Ford for the record.
    Mr. Duncan. Without objection, so ordered.
    [The referenced information follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Ehlers. Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Thank you very much, Congressman Ehlers.
    We are pleased to have, as I mentioned earlier, a very 
distinguished panel of witnesses. Representing the Great Lakes 
and St. Lawrence Cities Initiative is the Honorable Gary 
Becker, who is the Mayor of Racine, Wisconsin. Representing the 
U.S. Environmental Protection Agency is the Honorable Benjamin 
H. Grumbles, Assistant Administrator for Water, a graduate of 
this Subcommittee who has moved on to bigger and better things. 
Representing the U.S. Army Corps of Engineers is Brigadier 
General Bruce A. Berwick, the Commander of the Great Lakes and 
Ohio River Division from Cincinnati. Representing the U.S. 
Department of the Interior is Mr. Charles Wooley, who is the 
Deputy Regional Director of the Great Lakes-Big Rivers Region 
of the U.S. Fish and Wildlife Service. He has come from 
Minneapolis. Representing the Council of Great Lakes Governors 
is Mr. Todd Ambs, the Water Division Administrator for the 
Wisconsin Department of Natural Resources, from Madison, 
Wisconsin. And finally, representing the University of 
Michigan, or from the University of Michigan, is Dr. Donald 
Scavia, Professor and Associate Dean of the School of Natural 
Resources and Environment and Director of the Michigan Sea 
Grant at the University of Michigan in Ann Arbor.
    Gentlemen, it is a real privilege to have each of you here 
and I thank you for taking time out of your very busy schedules 
to be with us. Almost every committee and subcommittee asks the 
witnesses to limit their statements to five minutes. I know it 
is hard sometimes to do that, so I give the witnesses in this 
Subcommittee six minutes. But in consideration of other 
witnesses, if you see me start to wave this gavel, then that 
means to bring your statement to a close, because we do, as I 
say, you have other witnesses, and in addition, some of the 
Members wish to get to the questions.
    We also proceed in the order the witnesses are listed in 
the call of the hearing. That means Mayor Becker, we will start 
with you.

TESTIMONY OF THE HONORABLE GARY BECKER, MAYOR, CITY OF RACINE, 
WISCONSIN, AND VICE CHAIR, GREAT LAKES AND ST. LAWRENCE CITIES 
   INITIATIVE; THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
ADMINISTRATOR FOR WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY; 
BRIGADIER GENERAL BRUCE A. BERWICK, COMMANDER, GREAT LAKES AND 
  OHIO RIVER DIVISION, U.S. ARMY CORPS OF ENGINEERS; CHARLES 
   WOOLEY, DEPUTY REGIONAL DIRECTOR, U.S. FISH AND WILDLIFE 
  SERVICE, U.S. DEPARTMENT OF THE INTERIOR; TODD AMBS, WATER 
    DIVISION ADMINISTRATOR, WISCONSIN DEPARTMENT OF NATURAL 
RESOURCES; DONALD SCAVIA, PROFESSOR AND ASSOCIATE DEAN, SCHOOL 
 OF NATURAL RESOURCES AND ENVIRONMENT, DIRECTOR, MICHIGAN SEA 
                 GRANT, UNIVERSITY OF MICHIGAN

    Mayor Becker. Good afternoon, Mr. Chairman and members of 
the Committee. I am Mayor Becker from Racine, and I am here 
today in my capacity as Vice Chair of the Great Lakes and St. 
Lawrence Cities Initiative. I appreciate the opportunity to 
testify before you today concerning the Great Lakes restoration 
and protection and more specifically, how we can work together 
to implement the Great Lakes Regional Collaboration Strategy 
that was released in December of 2005.
    The Great Lakes are a resource of tremendous value to the 
people of our Country and of Canada. The Cities Initiative is 
an organization with over 80 participating cities. Chicago 
Mayor Daley is our founding chair and Toronto Mayor Miller 
serves as our current chair. The goal of the Cities Initiative 
is to advance water quality, water conservation and waterfront 
vitality by being an active participant in Great Lakes 
decision-making by developing and sharing local best practices 
and by being strong advocates for the long term restoration and 
protection of the Lakes.
    Since 2003, when Mayor Daley established the initiative, we 
have been actively engaged with the Bush Administration, Great 
Lakes governors, tribal leaders, business leaders and a wide 
range of advocacy groups on these issues. In May of 2004, 
President Bush issued an executive order to develop a regional 
plan for the Great Lakes Basin. The Great Lakes Regional 
Collaboration Strategy released in December 2004 is the product 
of that executive order. The Strategy represents the most 
comprehensive statement ever developed about the problems faced 
on the Lakes and what it will take to solve them over the long 
term.
    Equally important, the Strategy represents the very first 
consensus strategy from all relevant stakeholders in the Great 
Lakes region about the current and future needs of the Lakes. 
While the estimated cost to fully implement the Strategy is $20 
billion, mayors and governors recognize that that is an 
expenditure that will need to be spread over a number of years. 
Accordingly, when the Strategy was released, mayors and 
governors asked the President and Congress for an initial 
investment of $300 million to focus on the top priorities and 
address the most urgent problems.
    In addition, mayors and governors requested several other 
steps to help advance the restoration and protection of the 
Great Lakes, including enactment of the Comprehensive Aquatic 
Invasive Species Legislation, with a special emphasis on 
ballast water and a more streamlined approach to Federal 
wetlands protection. The mayors appreciate that some Members of 
Congress have shown interest in moving forward on some of the 
aspects of the Great Lakes restoration and protection. I thank 
you for holding this hearing today.
    In addition, various members of Congress have pushed hard 
for action. However, no legislation has been enacted, and with 
the exception of the Legacy program, no additional Great Lakes 
funding is on the horizon.
    The mayors are disappointed that there has not been more 
progress from the EPA and other Federal agencies in terms of 
supporting forward movement on the Collaboration. Moreover, the 
Great Lakes Interagency Task Force, which was established by 
the executive order to coordinate Federal Great Lakes policy 
among numerous Federal agencies, still has not taken any 
substantive action. We are also very concerned about other 
Federal actions that are wholly inconsistent with the Strategy, 
such as the proposal to continue cutting the Clean Water State 
Revolving Fund.
    However, the lack of Federal movement has not slowed the 
momentum of Great Lakes mayors, governors and tribes in working 
toward Great Lakes restoration and protection. Cities are 
spending hundreds of millions of dollars annually in capital 
and operating expenses to improve the Lakes and its watershed.
    Activities are being undertaken in cities across the basin, 
as mayors do our part to increase the value of this natural 
resource for the enjoyment of our citizens. Mayors want to 
continue as full partners with Federal, State and tribal 
governments in the effort to restore and protect the Great 
Lakes.
    In summary, the Cities initiative remains strongly 
committed to its initial request to the President and Congress 
for a $300 million investment to begin work toward 
implementation of the highest priority items in the Strategy. 
The Cities Initiative also remains committed to working toward 
passage of comprehensive invasive species legislation and other 
priority Great Lakes bills consistent with the Strategy.
    We have a unique opportunity with the Collaboration to make 
a significant departure from business as usual toward a 
consensus approach. The Cities initiative wants to make sure we 
do that so future generations will look back with gratitude and 
say that all levels of government made a positive change for 
the Great Lakes by working together to restore and protect 
them. I hope we do not wait until the levees break, so to 
speak, before we act.
    Thank you for holding this important hearing and for the 
opportunity to provide testimony.
    Mr. Duncan. Thank you very much, Mayor. Fine statement.
    How long have you been the Mayor?
    Mayor Becker. Three and a half years, sir.
    Mr. Duncan. Three and a half years. My father was city law 
director for three and a half years and then mayor for six 
years. And those nine and a half years were from the time I was 
8 or 9 until I was 17. I sort of grew up at City Hall. I found 
out how tough it is, how difficult it is. I believe being mayor 
of a city is one of the toughest jobs in the Country. I also 
found out that, I think everybody and his brother wanted to be 
a fireman or a policeman. Then the day after they went on the 
force they wanted a promotion or a raise or both.
    [Laughter.]
    Mayor Becker. Well, obviously things are not any different 
in Tennessee than from here.
    [Laughter.]
    Mr. Duncan. Thank you very much.
    Administrator Grumbles.
    Mr. Grumbles. Thank you so much, Mr. Chairman, for the 
opportunity to be here before the Committee. It is an honor 
representing EPA. It is also an honor to follow the Mayor and 
to be part of this panel. It requires people at all levels of 
government and the private sector working together. So this is 
a very constructive effort, this hearing, on progress that we 
are making.
    The Great Lakes is a priority of this Administration. We 
have taken several important steps. The President, when he 
issued the executive order, made it very clear that there would 
be a Federal Interagency Task Force and that we would focus on 
improving the delivery, better coordination and collaboration, 
streamlining and effectiveness to accelerate the pace of 
environmental restoration and protection, while maintaining our 
Country's economic competitiveness.
    Also, an incredibly important part of that executive order 
was to promote the concept of this Great Lakes Regional 
Collaboration. The success of the effort depends on all the 
partners, governmental, non-governmental, Federal, State, 
local, tribal and working also in complementary fashion with 
our important partners in Canada, because this is an 
international treasure as well.
    I would like to focus in on a few things in the amount of 
time I have, Mr. Chairman. Some of the specific follow-ups to 
the executive order, the Interagency Task Force and the 
Regional Collaboration, the Strategy, the blueprint, if you 
will, for further progress. I want to focus in on three 
specific areas that represent fundamental progress and a reason 
to be encouraged.
    The Task Force is working, we meet periodically. The charge 
for us is to improve the delivery, look for streamlining. A 
perfect example of that is in the wetlands arena, streamlining 
of process and improved protection of wetlands. One of the 
near-term actions that this Administration is committed to on a 
regional basis in the Great Lakes is to improve, to look at the 
nationwide permit 27, modifying it or having an alternative 
regional general permit to help good Samaritans have less red 
tape and get to restore wetlands more effectively and 
efficiently. So that is an important result of the Interagency 
Task Force.
    Another effort of the Task Force is to focus on 
sustainability and strategic actions. So we meet periodically 
and we identify using the Regional Collaboration Strategy as a 
guide, as an overall guide. We identify priority projects for 
scarce resources to be applied towards.
    The Regional Collaboration resulted in a blueprint on 
December 12th, 2005. Congressman Ehlers was there and was in a 
way a master of ceremonies, bringing people together. That was 
a historic document. There was a lot of important work to do. 
All of the partners agreed that it could serve as an overall 
guide, and that is what we are using it as.
    I want to focus on three things, Mr. Chairman, and three 
very important areas that various agencies under the 
Administration are focusing on and others as well. One of those 
is contaminated sediments. As you know, and the leadership of 
this Committee has shown on the Great Lakes Legacy Act, you 
know that one of the most important priority areas is to remove 
those contaminated sediments, to get progress going. We have 
five projects that have received funds. The President has made 
it a priority, is seeking full funding. We want to work with 
Congress to get those funds appropriated. I was just in 
Ashtabula yesterday and it is a tremendous sight, Mr. Chairman, 
to finally see after over a decade of talk to see real 
progress, where the dredging is 24/7, they are moving 550,000 
cubic yards of sediment out of the harbor. They are cleaning it 
up, they are making progress, they are cutting red tape. That 
has been a charge through the executive order and also 
following the requirements of the Great Lakes Legacy Act. That 
is a priority area.
    Another priority area, near-term action that the 
Administration is fully committed to is on wetlands, wetlands 
throughout the Country, but also wetlands in the Great Lakes. 
The goal of the Administration is to move beyond no net loss 
and to gain wetlands. The way to do that is to continue to use 
the Clean Water Act. We have aggressively defended it as a tool 
before the Supreme Court. We will continue to do so.
    But it is also to use cooperative conservation. Therefore, 
through the Great Lakes Regional Collaboration, we have 
committed as one of our near-term actions to restore, improve 
and protect 100,000 acres of wetlands in the Great Lakes and 
work with the States to have an additional 100,000 acres on 
their part, so we can see 200,000 acres. We recognize that 
acreage is one part of the equation, value, quality of those 
wetlands is another important one.
    We have established a subcommittee to track and monitor for 
progress, to work with the private sector to put a priority on 
wetlands in the Great Lakes, to restore them, recognizing that 
they are a key component, they are like nature's kidney. They 
help not only provide habitat for waterfowl and a healthier 
environment, they also protect against flooding and the threat 
of loss of life. They help the economy.
    The last area, Mr. Chairman, that is a priority among the 
agencies, because we are using the Strategy as a guide, is 
invasive species. Congressman Ehlers has been a leader in this 
effort in particular. We recognize that that is a threat to the 
economy and the ecology of the Great Lakes, and more work needs 
to be done at the Federal level. The Coast Guard and other 
agencies are working together using the guide as a blueprint.
    We are committed to improving our efforts. One specific 
example in just the last year, EPA issued a document guide for 
response, rapid response, when you detect an invasive species, 
to try to cut it off at the pass and reduce the adverse 
impacts. But between the Asian carp and the zebra mussels and 
the water fleas and various other types of invasive species, 
that is a priority area.
    So Mr. Chairman, just to conclude, I would say that the 
President's budget for 2007 puts a priority on sediment 
remediation. Other agencies put a priority on cleaning up and 
reducing runoff. We look forward to working with the Congress 
on finding sustainable ways and advancing the Strategic Plan 
and the partnership among our colleagues in the Great Lakes.
    I would be happy to respond to questions when you have 
them, sir.
    Mr. Duncan. Thank you very much, Administrator Grumbles. As 
you know, we have gotten into other aspects of your testimony, 
even not in regard to the Great Lakes particularly, but 
particularly on the invasive species problem for instance, and 
other things as well.
    General Berwick.
    General Berwick. Mr. Chairman, distinguished members of the 
Committee, good afternoon. Thank you for the opportunity to 
testify before you on the activities of the U.S. Army Corps of 
Engineers that contribute to the protection and restoration of 
the ecosystem of the Great Lakes.
    The Great Lakes ecosystem is a nationally significant 
national resource. And Mr. Chairman, I congratulate you on the 
numbers. I had never heard 6 quadrillion gallons before, but 
that is a remarkable number, although I am very familiar with 
the percentages.
    It is the world's largest freshwater ecosystem, and also 
provides millions of U.S. and Canadian residents with water for 
consumption, transportation, power, recreation and other uses. 
The Corps is working together with other Federal agencies, the 
Canadians and the affected States, tribes, local governments 
and stakeholders groups to help protect and restore this 
ecosystem. The Assistant Secretary of the Army for Civil Works, 
Mr. John Paul Woodley, Jr., is the Department of the Army's 
representative on the Great Lakes Interagency Task Force.
    The Strategy to restore the Great Lakes which was produced 
by the Great Lakes Regional Collaboration addresses eight of 
the nine priority issues identified by the governors of the 
Great Lakes States. These eight issue areas cover a wide range 
of environmental concerns, including invasive species, 
contaminated sediments, loss of fish and wildlife habitat and 
aging wastewater infrastructure. The Corps of Engineers has a 
variety of programs and projects in the Great Lakes that 
provide for both economic development and aquatic ecosystem 
restoration. I will briefly mention two of these.
    The Corps of Engineers is operating the electrical barrier 
on the Chicago Sanitary and Ship Canal with the goal of 
preventing, if possible, the migration of the Asian carp and 
other invasive fish species between the watersheds of the 
Mississippi River and the Great Lakes. We are continuing to 
operate the demonstration barrier, which was constructed in 
2002, and we are constructing a permanent barrier. This project 
has been challenging for technical reasons, but we recognize 
its importance. I am committed to doing everything I can to 
keep that line of defense in place and to doing it safely.
    In addition, the Corps has launched an initiative which 
focuses specifically on wetlands and aquatic habitat. Earlier 
this year, the Assistant Secretary of the Army for Civil Works, 
Mr. Woodley, announced the selection of the Great Lakes Habitat 
Initiative Project for $1 million in 2006 funding. This two-
year Great Lakes Habitat Initiative is an example of the type 
of integrated planning that can help bridge the gap between 
general recommendations for the protection and restoration of 
the Great Lakes and site-specific actions. This initiative will 
identify on-the-ground projects for habitat protection and 
restoration, develop performance metrics for prioritization, 
create comparable cost and benefit data and link projects with 
existing Federal, State, tribal, local and other sources.
    The Corps is pleased to have had the opportunity to appear 
before you to provide an overview of our activities on the 
importance of the ecosystem of the Great Lakes. We value highly 
the water resources of the Lakes and the partnerships we have 
formed. We look forward to continuing those partnerships.
    Mr. Chairman, again, thank you for this opportunity, and I 
will be pleased to answer your questions when the time comes. 
Thank you very much, sir.
    Mr. Duncan. Thank you very much, General Berwick.
    Mr. Wooley.
    Mr. Wooley. Thank you, Mr. Chairman and members of the 
Subcommittee. I am Charlie Wooley, Deputy Regional Director of 
the U.S. Fish and Wildlife Services Midwest Region.
    I am pleased to appear before you today to discuss the 
Great Lakes Regional Collaboration Strategy and how it can be 
implemented to restore and protect the Great Lakes. My 
statement will address the Agency's collaborative role in 
implementing the strategy. Fish and Wildlife Service survey 
data indicate that fishing, hunting and wildlife watching 
generate nearly $18 billion in annual revenue in the Great 
Lakes region. In collaboration with others, the Fish and 
Wildlife Service addresses natural resource issues that affect 
the fish, wildlife and habitats of the Great Lakes basin, as 
well as the 35 million people that live there.
    As the only Federal agency whose mission is to conserve, 
protect and enhance fish, wildlife and their habitats, the 
Service is uniquely positioned to serve the natural resources 
of the Great Lakes basin and provide leadership on the Great 
Lakes governors' priorities in the areas of habitat and 
species, aquatic invasive species and information and 
indicators. Within the Great Lakes, habitat loss is a 
tremendous concern. The Great Lakes region has lost more than 
half of its original wetlands, 60 percent of its forest lands. 
And the region only has a small remnant of other habitat types, 
such as savannahs and prairies.
    The Administration strongly supports wetland restoration 
efforts as evidenced by the President's commitment to restore, 
enhance and protect 3 million acres of wetlands nationwide over 
5 years. The Federal Government and our many, many partners, 
including the Fish and Wildlife Service, will join in a shared 
effort via the Regional Collaboration process to develop 
wetlands restoration plans that will enhance and protect a 
total of 200,000 acres over the next several years in the Great 
Lakes Basin.
    Now, you may ask, what is the Fish and Wildlife Service's 
role in wetlands restoration? Well, the Service brings to bear 
a range of programs that contribute directly to restoration of 
fish and wildlife species and their habitats within the basin. 
For example, in 2005, the Service awarded $2.1 million in North 
American Wetlands Conservation Act grants to restore, protect 
and enhance approximately 4,000 acres of wetlands in the Great 
Lakes basin.
    In 2005, the Service awarded $4 million in National Coastal 
Wetlands Conservation grants for partners to acquire over 1,800 
acres of wetlands along Lake Superior and Lake Michigan. 
Through settlements under the Natural Resource Restoration 
Program, the Service has restored and enhanced 955 acres of 
wetlands and protected almost an additional 900 acres of 
wetlands in Indiana, Michigan and Wisconsin. Additionally, in 
the Fox River, Wisconsin area, the Service and Wisconsin 
Department of Natural Resources restored and enhanced over 
4,600 acres of wetlands and associated uplands and protected an 
additional 5,000 acres in this area.
    The Service's partners for Fish and Wildlife Service 
program in 2005 and through 2006 have restored 270 individual 
wetlands restorations, totaling approximately 10,000 acres in 
the Great Lakes basin over the last year and a half.
    Let me switch gears for a minute, please. An excellent 
example of collaboration in action is the work of Ohio EPA, 
Fish and Wildlife Service and U.S. EPA's Great Lakes National 
Program Office are doing to remediate contaminated sediments 
via the Great Lakes Legacy Act funding and restore injured 
natural resources in the Ashtabula River in Ohio. The Fish and 
Wildlife Service has received a settlement for injuries to 
natural resources within the Fieldsbrook Superfund site, the 
source of contamination to the Ashtabula River. Those funds are 
being used to implement restoration projects along and near the 
river, which will compensate the public for those natural 
resources lost at the Fieldsbrook site, in conjunction with the 
removal of contaminated sediments out of this river by EPA 
utilizing Legacy Act funding. This is a fabulous example of 
cooperation and collaboration, right in front of our eyes.
    More than 160 non-native aquatic species are established in 
the Great Lakes. And during the last several decades, 
populations of non-native species have been discovered at an 
average rate of one every eight months. The Great Lakes 
Regional Collaboration's aquatic invasive species action plan 
is an excellent example of how to prevent new introductions of 
aquatic invasive species into the Great Lakes and how to 
eradicate, control, contain and limit impacts of aquatic 
invasive species already introduced. Prevention of invasive 
species introductions and control of established populations of 
invasive species are critical to sustaining and enhancing 
ecosystem integrity. We utilize the Binational Sea Lamprey 
Control Program administered by the Great Lakes Fishery 
Commission to do this.
    Successful restoration strategies for the Great Lakes must 
also include informed decision making. The Great Lakes Fish and 
Wildlife Restoration Act, initially authorized by Congress in 
1990, has enabled the Service to develop partnerships with a 
wide range of Federal, tribal, State and local governments and 
private entities, as well as with Canada, to create a basin-
wide program to monitor the ecological health of the Great 
Lakes.
    Since 1998, 72 restoration projects totaling $6.6 million, 
including $4 million in Federal funds, have been implemented 
under the authority of the Restoration Act. More than 60 
organizations have contributed matching funds and expertise, 
and countless aquatic species, such as lake trout, sturgeon, 
walleye and perch, as well as wildlife, have benefitted.
    In closing, Mr. Chairman, thank you for the opportunity to 
testify in front of you this afternoon. I will be glad to 
answer any further questions.
    Thank you, sir.
    Mr. Duncan. Thank you very much, Mr. Wooley.
    Mr. Ambs?
    Mr. Ambs. Good afternoon, Chairman and members of the 
Committee. Thank you for the opportunity to speak today.
    I come to you from the Freshwater Belt of the Nation, the 
Great Lakes. I am happy to be here. I am testifying today on 
behalf of the Council of Great Lakes Governors and its chair 
and my boss, Wisconsin Governor Jim Doyle.
    I want to take a couple of moments to talk about something 
that hasn't been talked about yet today. On December 13th, 
2005, ten governments of our water belt, eight States and two 
Canadian provinces, came together with a shared vision to 
announce a remarkable agreement. On that day they signed the 
Great Lakes St. Lawrence Sustainable Water Resources Agreement, 
and the governors endorsed the companion Interstate Compact. 
These agreements reflect a unique commitment to shared goals 
and objectives and reflect the leadership and collaborative 
spirit of the eight Great Lakes governors.
    These agreements also provide unprecedented protections for 
the Great Lakes by banning water diversions with limited 
exceptions, initiating water conservation programs in each 
State and promoting the sustainable use of our water resources. 
Now the effort has moved to the State houses for legislative 
action that will put in place the authorities needed to 
formalize the interstate compact. Once State legislative 
actions are completed, we will together approach Congress with 
a request for consent to formally enact the compact.
    I mention this because it is an incredible collaborative 
effort. It is the result of cooperation that fundamentally 
poses the concept that we should treat the Great Lakes basin as 
if it is all one ecosystem and that in fact what people do with 
their water in Duluth can in fact have an impact on people in 
Detroit and Cleveland and Toronto and Buffalo, and they ought 
to have a say in that. We have been able to pull that off. We 
have it on paper. It is a tremendous collaborative effort.
    As a Great Lakes boy, somebody who was born and raised in 
Michigan, who spent 12 years in Ohio and now 10 years in 
Wisconsin, I can tell you in my lifetime I have not seen such a 
collaborative effort. This effort on the Great Lakes quantity 
was one of nine priorities that the governors identified in 
2003, that the mayors quickly embraced, and which became the 
cornerstones of a second landmark event that we have been 
talking about today, the release of the Regional Collaboration 
Strategy to protect and restore the Great Lakes.
    This compact I just spoke of is one priority. But the other 
eight are contained in the Collaboration.
    We have talked about the plan being released. It is not a 
State strategy, an agency strategy, a city strategy, a tribal 
or advocacy strategy. It is a plan to move us toward our shared 
restoration vision. More than 1,500 people, representing many 
additional thousands, put it together.
    But this strategy will not be fully implemented in one or 
even ten years. Again, no single agency nor single government 
can succeed without the full support and shared investments of 
all of our partners. If we begin to do it now, if we don't act 
now, the problems become bigger and more expensive. 
Contaminated sediments don't go away, they just get more 
expensive to remove. The same contaminants spread throughout 
the lake beyond a confined harbor become impossible to manage 
and solutions unaffordable.
    We applaud the efforts of Congress in a number of areas: to 
institutionalize the collaborative process, recent Senate 
action to increase the authorization level in the Great Lakes 
Fish and Wildlife Restoration Act, the Legacy Act, which has 
been talked about before. However, as previously identified in 
a joint letter from the Council of Great Lakes Governors and 
the Great Lakes and St. Lawrence Cities Initiative, we need the 
shared investment from Federal partners to be stable and long-
term.
    As the budget process began, we asked the President to 
support a request of $300 million to jump-start the 
implementation of Strategy recommendations. Unfortunately, it 
appears so far that our message and the voices of our region's 
citizens are not being heard. We know and hear about difficult 
fiscal circumstances. We see that there are priority issues 
receiving additional funding support. We need additional 
support at the Federal level.
    So what is it that we need to change? Four key areas. We 
need stable, long-term funding commitments. We need more 
efficient delivery systems. One example could be block grants, 
to get funding to projects quicker. We need national programs 
where none currently exists, contaminated sediment management 
and exotic species being a couple that have already been 
referenced. And we need to eliminate duplication, overlapping 
programs and inefficiencies.
    You have seen and heard how this region mobilized to 
respond to the President's executive order. The people who live 
and work in the Great Lakes States are counting on all of the 
levels of government to come together and work on their behalf. 
The many thousands who invested their time and energy into this 
Strategy development at the request of their government expect 
that the governments will respond with meaningful restoration 
efforts.
    We need the continued support of Congress to attain the 
necessary long-term stable funding. We need the support of 
Congress to try more efficient ways with reduced transactional 
costs to move money into implementation. We need the support of 
Congress to work together in a ``regional collaboration of 
national significance'' as directed by the executive order. We 
need the support of Congress to help restore faith in 
government for the citizens of the eight Great Lakes States who 
supported the restoration actions identified in the Regional 
Collaboration Strategy.
    Thank you again for this invitation to appear before you 
today. I look forward to attempting to answer any questions 
that you might have at the appropriate time.
    Mr. Duncan. Thank you very much, Mr. Ambs.
    Dr. Scavia.
    Mr. Scavia. Mr. Chairman, members of the Subcommittee, I 
thank you for the opportunity to testify today. My name is Don 
Scavia, and I come here in several capacities. In addition to 
being Professor of Natural Resources and Environment and 
Michigan Sea Grant Director at the University of Michigan, I am 
also the science advisor to the Healing Our Waters Coalition 
that has been referred to recently, and supported by Mr. Wege 
from Grand Rapids.
    Before joining the Michigan faculty, I served in NOAA as a 
research scientist for 29 years, and research manager. I worked 
15 years on the Great Lakes, 14 years at the national level. It 
provides me with both a regional and a national perspective on 
the significance of the Great Lakes, the need for restoration 
and the role for science.
    One thing I did notice is, testifying as an academic as 
opposed to a Fed, no one sits behind you.
    [Laughter.]
    Mr. Scavia. My written testimony focuses on four areas: the 
need to act now to protect these resources; the need to 
identify priorities; the need for a strong science-based 
restoration; and the critical role for an independent voice 
that Great Lakes universities can provide. My oral statement 
focuses on these first two issues.
    A significant portion of my testimony is drawn from a white 
paper entitled Prescription for Great Lakes Ecosystem 
Protection and Restoration: Avoiding the Tipping Point of 
Irreversible Changes. The report is included as part of my 
written testimony. This white paper has been endorsed by over 
200 scientists coming from every State in the Great Lakes 
basin, as well as scientists from California, Florida, 
Maryland, Hawaii, Colorado, and Tennessee. In fact, over one-
third of the endorsements come from outside the Great Lakes 
basin, indicating that the Great Lakes and its restoration are 
an issue of national significance.
    Our first point is that it is critical to act now. There is 
widespread agreement among scientists in the Great Lakes that 
they are impacted by a wide range of stresses, and that key 
areas are undergoing rapid changes where these stresses are 
interacting. The Prescription paper points out that the Great 
Lakes may be nearing a tipping point beyond which the ecosystem 
would move to a new condition, one that is less desirable from 
a recreational, commercial and aesthetic perspective, and more 
importantly, one from which it may be very difficult, if not 
impossible to recover.
    Food web disruptions are a prime example with regard to 
this tipping point. For example, NOAA has demonstrated the 
dramatic and rapid disappearance of the once-abundant bottom-
dwelling animal called Diporeia. The dramatic declines are 
likely linked to the invasions by the zebra and the cargo 
mussels and may be one of the clear signs that the Lakes are 
moving into a new regime where these mussels maintain high 
populations and prevent any substantial recovery.
    For example, the abundance of the critical member of the 
Lake Michigan food web declined from over 5,000 individuals per 
square meter in 1994 to less than 300 per square meter in 2005. 
And Dave Jude, a colleague of mine from the University of 
Michigan found for the first time enormous quantities of quagga 
mussels in Lake Michigan at depths where only a few have been 
found before. At a 100 meter depth, he pulled up almost 400 
pounds of quagga mussels in just a 10 minute bottom trawl. So 
many members of the fish community depend on this Diporeia 
species that their replacement with this lower food quality 
mussels may result in tipping the entire ecosystem toward a 
whole new food structure, far less valuable to society.
    The problem with ecological tipping points, though, is you 
can't be sure you have reached it until it is too late. So we 
urge a precautionary approach to avoid passing that critical 
point by acting now to support high priority restoration and 
protection efforts. So our second point is about setting 
priorities. The Strategy and Collaboration does a really good 
job of identifying major problems besetting the Great Lakes, 
recommending concrete solutions, identifying programs to 
implement those solutions and recommending funded need for 
those programs to be successful.
    The Prescription paper recognizes four categories of 
efforts. The first is prevention. That includes efforts to stop 
new invasive species, new chemicals, new physical modifications 
from adding stresses to the already stressed Great Lakes. The 
second category is protection. That includes efforts to protect 
areas that currently possess the characteristics that we are 
striving for in restoration.
    The third category is restoration itself. That focuses on 
repairing the buffering capacity or the resiliency of the Lakes 
themselves. It will be impossible to eliminate all stresses, 
and even when it is possible, it will likely take decades to 
achieve. So we must restore the Lakes' natural buffering 
capacity to be able to cope with the stresses. And the highest 
priority project should address near-shore regions, 
tributaries, watersheds and the connecting waters, because 
these provide effective buffers between the human enterprise on 
land and the valuable resources of the Lakes.
    The fourth category is to monitor and assess progress. 
Because without effective monitoring and assessment, it will 
not be possible to know if the resources spent on the other 
three categories are producing the desired result or simply 
being wasted. The collaboration strategy lists a wide range of 
efforts in each of these categories, and some estimates of the 
overall cost of implementation reach $20 billion over the next 
decade. While we support those efforts and the appropriations 
needed for implementation, it is clear that priorities must be 
set within each category, because the Nation can neither afford 
to pay for all this all at once nor wait for the future 
funding.
    We have been working with the Healing Our Waters Coalition 
and others to help identify priorities, and we suggest the 
following criteria. First, does the project improve or protect 
ecosystem resiliency, functioning and sustainability? In many 
places, this neutral buffering capacity has been lost, and one 
of the highest priorities is to re-establish it.
    Second is, do the projects address all the relevant 
stresses. While progress has been made in addressing some key 
stresses on the Lakes, the interactions of these stresses have 
now complicated the Lakes' recovery and to be most effective, 
projects need to take into account cumulative impacts and 
interactions.
    Three, do the projects address clearly documented impacts? 
The highest priority should be those projects that demonstrate 
clear connections between proposed actions and ultimate 
impacts. And finally, is there a plan to measure, assess and 
communicate results? Many if not most protection and 
restoration efforts are likely to take a long time and 
therefore need to be designated with an adaptive framework. To 
be adaptive, they need to have a clear plan to monitor 
activities and results, assess progress and potentially make 
adjustments to maximize their likelihood.
    I would like to close by highlighting two significant 
impediments that must be overcome before progress can be made: 
lack of funding and inflexible implementation. Even with 
priorities set and the willingness of all stakeholders to work 
together, the lack of funding remains an enormous impediment to 
making progress. I understand the overall efforts for 
restoration funding are quite significant. But it is time for 
the Great Lakes to receive support commensurate to the national 
significance. This is particularly true when one compares not 
only the range of stresses that impact the Lakes, but their 
enormous size and their contribution to the economy.
    Finally, we do need to have an adaptive capacity, which 
means we have to have a science base for the monitoring and the 
effort that goes forward.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    Mr. Duncan. Just so you won't think I am too bad, I let you 
run a minute and 15 seconds over the six minutes.
    Mr. Scavia. I see that, Mr. Chairman, thank you.
    [Laughter.]
    Mr. Duncan. All the other Members, with the exception of 
me, have to get to a Science Committee meeting. I told Ms. 
Johnson I would let her go first, and then I will come to the 
others as soon as we can.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    As I expressed in my opening statement, I am pleased with 
the overall efforts to develop a comprehensive plan for the 
Great Lakes restoration. But I remain concerned about whether 
this plan will ever be implemented. After hearing the witnesses 
that are working with the plan, I wonder if you feel optimistic 
or whether you feel it might be a wasted opportunity.
    What specific actions are your respective agencies taking 
to implement the Great Lakes Regional Collaborative Plan?
    Mr. Grumbles. Congresswoman, I will just start and say, we 
view the plan as an overall guide. So some of the specific 
actions we are taking, one is, we are working with our 
partners, we all agreed to an implementation framework. That is 
an infrastructure, a process to track and follow through and 
progress on actions that all of us are taking.
    The second thing is that the Administrator, Steve Johnson, 
Administrator of EPA, designated Gary Gulezian, who is behind 
me, the Director of the Great Lakes National Program Office, to 
specifically track and monitor Federal agency actions that 
advance the Strategy.
    The third thing I would mention is that each of the 
different areas, each of the eight major categories of themes 
of recommendations, we do have specific near-term Federal 
agency actions that we have committed to take and that we are 
on track to completing. So we are focused on that and committed 
to the Regional Collaboration and getting results such as 
through the Great Lakes Legacy Act, cleaning up the sediment 
sites and seeking the funding at the Federal level to do just 
that.
    Ms. Johnson. It is my expectation that you are probably 
already putting together the President's budget request for 
fiscal 2008. Is that right, that would include this plan?
    Mr. Grumbles. Congresswoman, our agency, like other 
agencies, is working internally on developing their 
recommendations for a 2008 budget, that is correct.
    Ms. Johnson. My colleague said here, which happens all the 
time, that the requests have come over, it has been the 
Appropriations Committee that has cut the funds. How much has 
the Appropriations Committee cut each time?
    Mr. Grumbles. Congresswoman, the most accurate and 
responsive approach for me to follow up on that would be to say 
that we can provide you with specific numbers on items, 
comparing items in the President's budget request with the 
Appropriations Committee's or what Congress ended up 
appropriating. A good example is in the areas of concern where 
for the second year in a row, the Administration has requested 
virtually full funding for the Great Lakes Legacy Program and 
Congress has made progress and has appropriated more each of 
those years, but still falling short of the full funding 
requested.
    Ms. Johnson. Has this interfered with the implementation of 
the plan?
    Mr. Grumbles. We feel that, specifically with the Great 
Lakes remedial actions on the areas of concern, we feel that we 
have specific work plans, we have a Great Lakes Legacy rule. We 
are moving forward with the dollars that we have. We do have a 
surplus in the fund right now for the Legacy Act, but we also 
have a lot of work in the future in the pipeline that we know 
we can get done. So we are committed to the Great Lakes Legacy 
Act.
    Ms. Johnson. When you start working on the restoration, and 
you don't have the funds, will the delay cause some roll-back 
in some of the progress you have made?
    Mr. Grumbles. We think that the most important component of 
accelerating environmental protection is working together. As 
other witnesses have pointed out, it is a shared 
responsibility. Many of the projects, in fact most of the areas 
recommended, or the areas in the blueprint for action 
contemplate a variety of shared responsibilities. So we think 
the key, when there are budgetary constraints, and there are 
significant budgetary constraints, we want a realistic plan and 
to move forward to see real results. So we work with our 
partners to leverage the scarce dollars.
    So that is the key, improved coordination and improved 
leveraging.
    Ms. Johnson. Thank you very much.
    Mr. Duncan. Thank you very much, Ms. Johnson.
    I might just explain to the witnesses, I sit on seven 
subcommittee and three different full committees. Four of those 
subcommittees are having meetings that started at 2:00 o'clock 
today. I think that because, there must be half the 
subcommittees in the Congress meeting at this time. 
Unfortunately, this is the fewest number of Members that I have 
ever had at a subcommittee meeting that I have chaired. But I 
do think this is a very important topic, the status of the 
Great Lakes, and I do appreciate all of you being here. There 
are many other Members, I think, who realize the importance of 
what we are talking about. But I want to go at this time to Mr. 
Gilchrest, he did not have a chance to give an opening 
statement, for any comments or questions that you might have at 
this time.
    Mr. Gilchrest. Thank you very much, Mr. Chairman. I want to 
thank you for holding the hearing, along with the Ranking 
Member. I also want to thank Vern Ehlers for his lifelong 
commitment to this issue and the Great Lakes. I think he enjoys 
living in the belt. I have never heard it called that before, 
that is interesting.
    I read a book maybe 20 years ago and I can't remember the 
name of the author, but he was connected with Gerald Ford, I 
think maybe even worked for Gerald Ford when they were 
beginning the whole Great Lakes program. The title of the book 
was Making of An Environmental Republican. It was fascinating. 
If you can Google that up somewhere and take a look at it, it 
is interesting. Because it was the first time I had ever heard 
of problems with persistent toxic chemicals and their 
disruption, not only in the ecosystem, but in the endocrine 
system of species within the ecosystem. So it was really 
fascinating.
    Just a quick couple of comments, because I have learned 
some things that I want to now initiate with the Chesapeake Bay 
program, which I think will be helpful in this way. A hundred 
years ago, we did not know what human activity did to the 
degradation of nature's design and how it disrupted that 
process. We know about it now, in extraordinary ways, we know 
about it. So we have this magnificent level of science that we 
haven't known before.
    But people, to some extent, and I see that in my district, 
outside that arena of scientific information, who are in fact 
the people that make the decisions about land use at the local 
level, the town level, the county level, municipalities, have 
this monstrous certainty that more is better. Consequently, 
much of the problem with the Chesapeake Bay and the Great Lakes 
is a direct result of the local land use decisions as far as 
degradation from persistent toxic chemicals, from stormwater 
runoff, from sewage treatment plants, from a whole plethora of 
things that result from local land use.
    Now, we can connect like we are doing here today, with 
invasive species, with the Federal Government, the Clean Water 
Act, air deposition, those kinds of things we can collaborate 
on. But it is the idea now to integrate the information, I am 
glad to see the Mayor, Mr. Becker here today. Because to some 
extent you have seen this in communities near where you are 
that feel more construction, more development. What is a non-
tidal wetlands? Are we still dickering about the makeup of the 
soil, or the plant or the hydrology? What about forested 
buffers?
    But it is those answers, prevention, hold on to what you 
have, protection, don't let it be degraded any further, 
restoration, bring back the buffers, the forested buffers and 
non-tidal wetlands, and then monitor that. So Dr. Scavia, your 
idea of prevention, protection, restoration, monitor and assess 
progress is for each local community to take a look at the big 
picture and the Great Lakes is connected across that huge, 
beautiful belt.
    I apologize for my lecture, but I go through the same kinds 
of things with the Chesapeake Bay. I think what we know now 
about nature's design, we know that if we do the right things, 
human activity can be compatible with nature's design and 
people will see a cleaner Great Lakes 10, 15, 100 years from 
now than the see right now.
    I want to thank Vern for all his efforts in that arena. And 
I have to exit myself. But the staff is going to listen closely 
to your recommendations and follow up.
    Thank you, Mr. Chairman, Mr. Ehlers.
    Mr. Duncan. Thank you very much, MR. Gilchrest.
    Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I give my thanks to 
Mr. Gilchrest, too. He has been one of the heroes of the 
environmental movement, particular as it relates to water 
resources.
    I agree with the comment by Mr. Grumbles earlier that 
Legacy Act funding that the Administration has proposed every 
year has been right where it should be, right at the top, and 
unfortunately, the Congress hasn't done as well. But at the 
same time, I am very disappointed that the Administration has 
taken the position that it will only undertake those 
recommendations of the Collaboration that can be done within 
existing budget projects. We simply cannot accomplish what we 
need to do as outlined in the goals and objectives of the 
Regional Collaboration Strategy teams with the current funding. 
As I said in my opening statement, the solutions to the many 
problems facing the Great Lakes, contaminated sediment, sewer 
overflows, loss of habitat and so forth, will only become more 
expensive, more complicated and more daunting the longer we 
wait.
    So my question here for the Federal witnesses is, can we 
expect that the Administration's position will change as you 
develop your budget proposal for the coming fiscal year? We can 
just go right down the line. We will let you go first, Ben.
    Mr. Grumbles. Thank you, Congressman.
    The hard work that was put together in this unprecedented 
infusion of ecology and democracy in putting together that 
Regional Collaboration Strategy, that overall blueprint, was 
one that we continue to see the value in. We agree with other 
partners that it could be used as an overall guide.
    We did want to stress at the time that we are focused on 
using the resources that we have, having a blueprint, so that 
in recognizing what are priorities areas, given the fiscal 
constraints or the out-years, we would have the document, have 
something that help us all focus in on key areas.
    The contaminated sediments is an example where we are 
seeking new resources, additional resources, more funding. The 
last estimates we have indicate that the Federal agencies 
collectively have been providing half a billion dollars for 
direct water quality benefits in the Great Lakes among the 
various programs. So for us, the key, without knowing what 
future budgets will entail, and I certainly can't make 
predictions, Congressman.
    I think for us the key was to focus in on the areas that we 
know within our current budgetary resources we can take action, 
specific actions and to really look for areas to better 
leverage and to cut process and red tape to get more with the 
dollars we have, but to also have out there, as a result of the 
Collaboration and the partnership, a blueprint for future 
action if there are additional resources, both governmental and 
non-governmental, and looking at various levels and sectors of 
government, to have a real blueprint. I think that is a key 
part to not lose sight of.
    Mr. Ehlers. Let me just comment on that. I am a great fan 
of zero-based budgeting. What I see, it seems to me what you 
are saying is all your funding is already budgeted and you are 
going to try and squeak out what you can to deal with this new 
area. What I am asking for, and not a commitment now, but just 
asking you to do, by that I mean all governmental agencies, 
just look at the whole program and say, this is the world's 
greatest water ecosystem. We now have a program of what to do 
about it. What can we reduce elsewhere in the agency that is a 
lower priority than dealing with the world's greatest water 
ecosystem?
    Mr. Grumbles. Right.
    Mr. Ehlers. Let's get the others in before my time expires. 
General Berwick?
    General Berwick. Thank you, sir.
    I, like Administrator Grumbles, am not in a good position 
to forecast future budgets. But I will cite a couple of things 
that give me some reason for optimism. One is as a result of 
the activity of the Collaboration, some real national attention 
has been focused on the challenge of the fish barrier in the 
Sanitation Canal. In fact, Administrator Johnson last December 
specifically highlighted that and indicated a willingness to 
work with our agency and with Congress to try to bring about 
further redundancy in that barrier. So I am encouraged by that.
    I was also encouraged by our successful competition to have 
$1 million for the Great Lakes Habitat Initiative that the 
Corps of Engineers is undertaking, which will specifically look 
at wetlands and implementable projects. So I thought that $1 
million doesn't sound like much, but since that is study money, 
that is seed money, that is quite significant.
    Then along the same lines, in terms of developing synergy, 
I am encouraged by the activities at Ashtabula, where work is 
currently underway under the auspices of the EPA to remove 
contaminated sediments. But we are prepared to follow closely 
behind that and develop synergy by doing some navigation 
dredging, which will remove further contaminated sediments, and 
we are able to use the same placement facility and therefore 
get significantly more work done.
    So I think there are some good things that are happening 
with regard to resources. Thank you, sir.
    Mr. Ehlers. My point on this, just very quickly, one thing 
I have learned many times in my life, acting quickly can save a 
lot of money that you will have to spend otherwise. It makes 
sense to act quickly when the situation develops. I have just 
been totally dismayed, and I am not totally blaming you, the 
Congress bears some fault for this, too, at how long it has 
taken and how difficult it has been to put up the carp barrier. 
Now, that is a non-brainer. And we are talking about a couple 
million dollars here, you heard the testimony. It is an $18 
billion a year system that we are dealing with. And right now, 
just from the zebra mussels alone, we are spending $2 billion a 
year just in the Great Lakes ecosystem. Nationwide, it is a 
cost of $13 billion a year dealing with the invasive species 
and the aquatic invasive species. The Asian carp could easily 
wipe out the fishery in the Great Lakes.
    So we are worried about how we can fund a couple million 
dollar project. But we have $18 billion hanging there as the 
penalty if we don't do it right. That is the point I am trying 
to make here. Let's really prioritize these and go back and 
look at some of the other things we have and say, are they 
really as important as saving $18 billion a year? Or I should 
say preserving the $18 billion a year industry.
    My time has expired. I would love to have Mr. Wooley's 
comments, if you can do it very, very briefly.
    Mr. Wooley. Very quickly, Congressman Ehlers. Last Thursday 
in Traverse City, Michigan, the Fish and Wildlife Service 
dedicated and christened a 100 foot long vessel called the 
Spencer Barrett. That vessel, sir, will be used to increase 
lake trout stocking in Lake Michigan and Lake Huron. It will 
also be utilized to assess lake and fish populations, 
particularly stocked fish populations in Lake Michigan and Lake 
Huron. I think it is a great example of the Fish and Wildlife 
Service contribution to the collaborative nature of this work, 
and it is certainly identified in the collaborative report that 
we need more of that stocking assessment data. So that is an 
example, sir, from the Fish and Wildlife Service's viewpoint. 
Thank you.
    Mr. Ehlers. I appreciate that, because as you know, the 
zebra mussel and the goby are really entering the fishery in 
the Great Lakes. That is a potential huge economic loss. My 
apologies for running over, Mr. Chairman. Thank you.
    Mr. Duncan. Well, thank you very much, Dr. Ehlers. I would 
just ask the panel as a whole, since Dr. Ehlers ended up just 
mentioning the money and how much we could save, but also, I 
have noticed that in the Collaboration that we are told that 
they really need to do what needs to be done, probably $20 
billion over the next five years. That is $4 billion a year.
    Where is the money going to come from? Anybody got any 
suggestions? Mayor?
    Mayor Becker. We always look to the Federal Govenrment.
    [Laughter.]
    Mayor Becker. Understand, cities haven't been sitting back 
doing nothing as the Collaboration was formed and worked 
through and the thousands of hours of work done. Cities have 
been moving ahead throughout the whole process. I believe the 
city of Toronto is investing their own city dollars. This isn't 
any province or national dollars, $25 million a year, just in 
the city of Toronto, on their shores over the next 20 years, 
$25 million per year, a half a billion dollars they have set 
out to plan.
    In Racine, we have totally rebuilt our wastewater plant, 
our water intake plant. We have built wetlands. We have 
continued to move ahead on planning and ideas to do more.
    We again, as Congressman Ehlers said, what can be more 
important? It is every group ahead of you, I realize, is the 
most important group, and as it should be, they are advocates 
for their issues. But truly, as I said in the opening comments, 
we have heard people talk about that tipping point. That is 
probably in pretty good relation to the levee breaking in New 
Orleans, that once you go beyond, now you are going to spend a 
whole lot more trying to bring those Lakes back to where they 
are in balance as opposed to letting them go in the first 
place.
    So if you want, I can put together a list of $4 billion in 
cuts for you. But as Congressman Ehlers said, I think we have 
to look at our priorities. I know we don't do zero-based 
budgeting. But there certainly have to do things that the 
Federal Govenrment can step up and play their part like the 
local and the State governments have right along to complement 
each other, really work together. Because you can talk about a 
collaboration, but a collaboration without a lot of money and 
resources makes it very difficult to do. It is better than no 
collaboration and things will get done better. But certainly we 
all need the resources to move ahead.
    Mr. Duncan. Well, I will get on into some other questions. 
But I do think that those of you who are serious about this and 
involved in it, and I think most of you are, you need to come 
up with suggestions or proposals about where the money is going 
to come from. One of the most interesting things in Dr. 
Scavia's testimony that I read, he said the view from the 
majority of the science community is that we know enough now to 
take action to restore and protect the Great Lakes.
    The reason I found that to be so interesting is that most 
Members of Congress, we don't always get it, but we want 
action. And we get sick and tired of all these things being 
studied, studied, studied, studied, studied for years. So we 
would almost get the impression everything has been studied 
that could possibly be studied. There comes a time when you 
have to take action and do something. I was pleased that that 
was in his testimony.
    But I also know that we are discussing now, some of our 
staff is meeting right now about the Water Resources 
Development Act. And while that bill passes overwhelming in 
both the House and Senate, it may end up being in the end 
difficult to pass or difficult to get the funding for 
everything that is in there. That is a bill that probably is 
going to end up $13 billion or $14 billion for the water needs 
of the Nation as a whole.
    So while I regard the Great Lakes as very important and 
want to do as much as we can, we need almost as a first step to 
determine where the money is going to come from. And that is 
something that those who are directly involved in this really 
need to take a hard look at. And Administrator Grumbles wants 
to comment on that, and that is fine. You go ahead and comment 
on that.
    But I also want to ask you, the Great Lakes Office in the 
EPA was established, I am told, in 1987. I am wondering, over 
this past 20 years, you mentioned going to Ashtabula yesterday. 
In what area have you seen the most progress, and in what area 
are we having the least progress, are we falling the shortest 
in?
    Mr. Grumbles. Thank you, Mr. Chairman. I just wanted to 
mention on the question about funding and where does it come 
from, I think everyone agrees that it has to come from a 
variety of sources, and certainly not just governments and not 
just the Federal Government, but the private sector, the 
corporate community. One of the things that I think is very 
exciting, Todd mentioned it with respect to the compact and the 
water quantity and the work that the States and provinces in 
the Great Lakes are pursuing is, it embraces the ethic of water 
efficiency and water conservation.
    I wanted to mention that one of the ways EPA feels very 
strongly that you can reduce the costs on wastewater and 
drinking water infrastructure, maintenance and construction, is 
by coming up with more efficient ways that save water and 
reduce the energy and water demands on infrastructure. So our 
new program that is modeled on Energy Star, the WaterSense 
Program that will have labels available so the public can 
choose products that actually work as well as competing 
products, but are 20 percent more water efficient, is going to 
have a significant impact and will reduce the demands on the 
local infrastructure systems. Because they don't have to use as 
much energy to run them and will also reduce occurrence of 
sewer overflows, which is a real threat in the Great Lakes. But 
sustainable infrastructure, innovative financing and water 
efficiency are key.
    On your question about the Great Lakes National Program 
Office, Gary Gulezian is a real resource for the agency and for 
the Great Lakes region-wide. I will ask him, he can provide 
more specifics for the record for you, Mr. Chairman, and your 
Members.
    But I know that one of the areas where we have seen 
progress over the years is first of all, toxics. There has been 
a lot of work and accomplishments that have been made over the 
last decade, last couple of decades. Tremendous amount of work 
that remains. But the awareness and the goals that people in 
various levels of govenrment are working toward, toward the 
virtual elimination of toxics, is an important one. It is a 
threat to the ecosystem and to public health.
    But there has been progress made because of the awareness 
and specific actions, the strategies to reduce persistent 
bioaccumulative toxics, for instance, PCBs or others, which is 
a key culprit of a lot of the legacy contaminated sediment 
sites that we are putting a priority towards.
    Mr. Duncan. Thank you very much, Mr. Grumbles. I really do 
think you do a great job in a very difficult position. I also 
knew, and everybody in here knew that the funding for all this 
work is going to have to come from a variety of sources, as you 
said. And everybody is for things like innovative financing. 
That is a good high-falutin term and everybody is in favor of 
things like that.
    But I think it would be a good idea for the people who are 
in charge of this and the EPA is supposed to be the lead 
agency, get everybody together and sit down and say, let's come 
up with some specific plans and details about who is going to 
come up with what money and what kind of schedule and so forth. 
So we actually start getting some things done.
    General Berwick, along that line, I chaired the Aviation 
Subcommittee for six years and I sit on the Highway 
Subcommittee. All these things that we deal with in this 
Committee, we have heard, this is my 18th year on this 
Committee and I enjoy the work on this Committee, I think it is 
very important. But we always hear that all these 
infrastructure projects, of whatever type, water, highways, 
aviation, whatever, that they take three or four times as long 
as they really need to because of all the rules and regulations 
and red tape, particularly the environmental rules and 
regulations, and that these projects are taking on average 10 
years, 12 years, where they could be done in 2 or 3 or 4 years 
if we streamlined the process. And you know about that, we are 
trying to do that, trying to make some improvements in the 
Highway Bill.
    But when you make these projects cost three or four times 
as much, it doesn't hurt the wealthy, but it hurts the poor and 
the lower income and the working people. And I can tell you 
this, everybody says we are in a global economy, and all these 
countries that are coming on the strongest, particularly China, 
boy, they don't take long to do these projects. They get them 
approved and they do them.
    What I am getting at is, is the Army Corps doing anything 
about streamlining and improving the permitting process so that 
we can start getting these projects that need to be done along 
the Great Lakes and in the Great Lakes done in a little faster 
way?
    General Berwick. Sir, we are absolutely taking a look at 
that at a national level from a number of different 
perspectives. We are excited at the prospect of trying to 
streamline that process and move it more swiftly.
    In doing so, we are also mindful of the fact that many of 
these projects are indeed very complex. So there is a balance 
that needs to be struck between going faster and making sure 
that we have the right solution before we launch too quickly. 
So there is a balance there that we are pursuing. But there is 
no question that streamlining is being very carefully looked 
at, and in particular in the regulatory arena there is a very 
specific look at trying to advance the opportunity to get 
permits more quickly.
    Mr. Duncan. I agree with you that a balance needs to be 
struck. That is my point. Because I think that we are out of 
balance right now. And when we have rules and regulations that 
make projects take three or four times as long as they should, 
and take 10 or 12 years when they could be done in 3 or 4 
years, that is not a good thing.
    Mr. Wooley, what is the Fish and Wildlife Service doing 
primarily about the aquatic invasive species, and specifically 
what I am asking about, one of the things, did you hear General 
Berwick say that there are technological or technical 
difficulties with the barrier?
    Mr. Wooley. Yes, sir. We have worked very, very closely 
with the Army Corps of Engineers and the State of Illinois over 
the last four years on that project. We have provided, when 
requested by the Corps, technical assistance. We have done an 
awful lot of electrofishing and survey work in the area where 
the barrier is in the Illinois River, supporting the Corps, 
supporting the State of Illinois on that project, sir. We have 
also brought in at times, when requested, electrical expertise 
that we have gathered as we utilize what is known as 
electrofishing techniques there to assist the Corps in 
assessment work.
    Mr. Duncan. I'm sorry, what fishing technology?
    Mr. Wooley. It is called electrofishing.
    Mr. Duncan. Electro?
    Mr. Wooley. Yes, sir.
    Mr. Duncan. Tell me about that.
    Mr. Wooley. It is a means where we just put a controlled 
amount of electricity into the water and we are able to assess 
fish populations by utilizing that method. That gives us the 
ability to survey, to look at the efficiency of the electrical 
barrier. It is a very good assessment tool fishery biologists 
use throughout the Country, sir.
    So our work with the Corps in the State of Illinois has 
been one of providing technical assistance and providing some 
fishery management expertise when requested, sir.
    Mr. Duncan. How big is that problem? I just heard Dr. 
Ehlers talk about the $13 billion that is being spent 
nationwide and the possible savings of $18 billion if we get 
some of this done. What do you say about all that?
    Mr. Wooley. It is a very, very important issue in the Great 
Lakes, sir. The impacts that just sea lamprey have on lake 
trout populations currently is costing the taxpayer about $15 
million a year. That is a shared project between the United 
States and Canada where we control sea lamprey populations in 
the Great Lakes.
    It is working. It is very labor-intensive and it takes a 
lot of coordination between the two countries to make it work. 
So there is a small but significant example, sir, of how 
controlling exotics is paramount in the role of the mission 
that the Fish and Wildlife Service has working with the Great 
Lakes Fishery Commission.
    Mr. Duncan. All right. Thank you very much.
    Mr. Ambs, you are here representing the Council of 
Governors from the region, the State governments. From your 
point of view, are the local governments doing as much as they 
should be doing in handling their pollution or waste from their 
stormwater and wastewater runoffs, their sewage runoffs, 
discharges?
    Mr. Ambs. Yes, I do think the local governments are going 
to great lengths to address those issues. The challenge that we 
have, as I think you well know, is that 30 years ago when the 
Clean Water Act went into place, we had a lot of Federal money 
that helped set those systems up. Now, 30 years later, the same 
level of commitment to maintain that infrastructure has not, is 
still not there.
    So the concern is, while local governments are going to 
great lengths, and frankly, in many cases, having to raise 
water rates significantly to pay for those infrastructure 
improvements, and while State governments are stepping up, we 
see unfortunately a backsliding at the Federal level of a few 
things like the current proposal to cut a lot of funding for 
the State revolving loan fund.
    I think one of the excellent questions that you have asked 
and certainly excellent comments of other members of the 
Committee, when you look at this, look at what the local 
governments can do, the States can do, and then tie it into 
what the Feds can and should do and use it to prioritize, I 
think we have a very specific blueprint for action. We 
recognized that the $20 billion figure over 10 years actually 
was a big number. We broke it down, along with the mayors and 
other collaborators a $300 million item over one fiscal year, 
with specifically identified places where strategically 
spending money could really pay benefits.
    And it is not just Federal money. We are asking for, as an 
example in that blueprint, $28 million more for wetlands 
restoration. But if we get that $28 million more from the Feds, 
State govenrment, local govenrment, tribes, non-governmental 
organizations, a whole range of folks have promised to match 
that money. If the Feds can come up with $28 million, we will 
figure out a way to come up with $28 million and to address the 
very critical infrastructure needs that we have.
    It is also not just a funding issue. The last comment I 
would make in terms of what the Feds can do, we are glad the 
Federal Interagency Task Force is formed, but we are eagerly 
awaiting them to identify places where they can have more 
efficient delivery of services. And we are also hoping that we 
can see some action on things that don't require a lot of 
additional money but certainly require some action.
    And aquatic invasive species is right at the top of the 
list. It is a critical problem. You talk about a tipping point. 
We have 165 exotic species in the Great Lakes. It is not only a 
question of the fishery, it is a question of the economic 
vitality of the region. And we have, for example, in the State 
of Wisconsin, the second highest number of out of State anglers 
come into Wisconsin, second only to Florida. It is a critical 
piece of our economy.
    And if we don't do something about the impact of aquatic 
invasives on just Lake Michigan, it is going to have a huge 
impact. So a few thoughts, Mr. Chairman.
    Mr. Duncan. Let me say this. We have heard over the years, 
nothing but good comments, I think, in this Subcommittee and 
this Committee about the State revolving loan funds program. 
Yet in both Democratic and Republican administrations, that 
program seems to not be real popular. And what I am wondering 
about is if the program is as important and as good as people 
from State and local governments tell us, and water agencies 
and so forth from around the Country, perhaps it might be a 
good idea of groups like your Council of Governors got in touch 
with OMB and people like that and other people in the various 
administrations and let them know of the work that has been 
done through that or with those State revolving loan funds. 
Might be something to think about.
    Dr. Scavia, you mentioned an ecological tipping point. 
Would you go into that a little bit more and how close are we, 
how urgent do you feel these needs are, or these problems are?
    Mr. Scavia. Sure. As I mentioned in my testimony, the 
problem with the tipping point is you don't know until you have 
passed it. So we are very concerned about it. I think some of 
the examples of the approach of the tipping point include the 
following. One is this loss of this animal that all the fish 
species in the Great Lakes really depend upon. The loss of that 
species and its replacement by the zebra mussels and the quagga 
mussels has been described as the difference between eating a 
Big Mac or eating a Big Mac with the styrofoam shell on it.
    The fish in the Great Lakes are already coming up thinner, 
less weight than they had been in the past, and we are very 
concerned that eventually that fishery may in fact collapse in 
one way or another. A second example is the Asian carp. If the 
Asian carp does get into Lake Michigan, it is a voracious top 
predator and it may decimate the population in very short 
order, completely shifting that population.
    There is another dimension I think is important. That is 
backsliding.
    Mr. Duncan. Backsliding?
    Mr. Scavia. Backsliding. Thirty or 40 years ago, the poster 
child for the Great Lakes was Lake Erie.
    Mr. Duncan. I usually hear that at Baptist churches.
    [Laughter.]
    Mr. Scavia. Lake Erie was the poster child, Lake Erie was 
dead, the Cuyahoga River was burning. That was the beginning of 
a lot of actions that have taken place. A lot of money was 
spent to build sewage treatment plants and to take care of the 
loads into the Lakes. A lot of progress was made. Lake Erie got 
a lot better. The dead zone went away or got very much smaller.
    It is back. The dead zone is now back and it seems to be 
growing again. The question is, it is because of increased 
population and inability to maintain the infrastructure that 
was put in place 30 years ago? Or is it the combination of 
those loads and now the introduction of the zebra mussel? There 
is concern that the zebra mussel is now changing the dynamics 
of the material in the Lakes that is actually stimulating the 
growth of that dead zone again. So we may be backsliding in the 
sense of losing progress that we have made in the Lakes as well 
as moving toward the tipping point.
    Mr. Duncan. Thank you very much. I emphasized to all of you 
not running over your time and I have gone way over my time. 
But I usually try to stick a little closer to the time limits 
if we more Members. But I like to get as many of the witnesses 
to participate as possible, and hopefully gain as much 
knowledge as possible from each of you and you have each been 
very helpful and very informative.
    Dr. Ehlers has a couple more questions or comments.
    Mr. Ehlers. Thank you, Mr. Chairman. First, a few comments. 
You mentioned in one of our previous hearings that Americans 
now pay $8 billion a year for bottled water. We could clean up 
the Great Lakes ecosystem in three years with the amount of 
money that people pay for bottled water. The issue is 
priorities and what is important to people. Clearly clean water 
is important to them. But putting the money into bottled water 
is not necessarily the most efficient way of dealing with 
achieving clean water.
    I think what had made the Legacy Act work so well, aside 
from the good work this Committee did on perfecting that bill, 
is that we included sharing of expenses in that bill. As you 
recall, 35 percent comes from the local communities or non-
profit groups or industries, what have you. And because 
communities are eager to get their particular area cleaned up, 
in my experience none of them have had any trouble raising that 
local match, the 35 percent.
    So we get a good deal for our money from that program. And 
that is partly why it has been so successful.
    I did want to ask a question. One of the primary goals of 
the executive order and the regional collaboration, as we have 
heard, is coordination across programs and levels of 
government. It is not just about funding, although we have 
talked about that. But the real issue is trying to get 
everything together so we can work well. This is not true just 
in instances where your agency decided to undertake a project 
or decided to change course in an existing project.
    But I am curious, are your agencies incorporating the 
Strategy's recommended goals, milestones and tasks into your 
short range and long-range planning. Are you really grabbing 
hold of what the Collaboration came up with and incorporating 
it into your plans? This time we will go the other way and 
begin talking, just the Federal witnesses. Mr. Wooley?
    Mr. Wooley. Congressman Ehlers, absolutely we are doing 
that from the Fish and Wildlife perspective. I can cite two 
examples, sir. One is we have utilized the collaboration and 
the weekly phone calls that we have with our Federal partners 
to be more efficient in the Great Lakes. An example is we are 
doing some assessment over in the Detroit River where we are 
utilizing Fish and Wildlife Service employees and dollars, but 
utilizing an EPA vessel in the Detroit River to do that 
assessment in concert with EPA and the State of Michigan. So 
there is efficiencies, coordination and effectiveness there.
    The second example is the Ashtabula River example that I 
cited earlier in my testimony, where we are doing that in 
concert with the State of Ohio and with GLNPO, the EPA Great 
Lanes Program Office in Chicago, taking our tool, utilizing it 
collectively, cooperatively with the State and with EPA to make 
a more efficient restoration occur in the Ashtabula River. So 
those are two examples, sir, that I can cite, just off the top 
of my head.
    Mr. Ehlers. Thank you. General?
    General Berwick. Congressman, my short answer would be yes, 
absolutely. I see one of the great advantages of this 
collaboration as the beginning of discussions and the 
opportunity to search for synergy and efficiencies and 
especially amongst our Federal partners, but even a larger 
circle beyond that. It has been very helpful in that regard.
    Mr. Ehlers. Okay, that is what I suspected. I know the EPA 
is already doing it, so we don't have to ask them. I am just 
very pleased it is accomplishing that, because I think that is 
one thing that the President hoped to accomplish, and I really, 
really admire him for putting this Collaboration together.
    But the fact that it is paying off I think is indicative of 
that, it was a very worthwhile effort.
    One other thing that came out of this when we were 
discussing this with all the tribes, the Governors, the mayors, 
et cetera, a great deal of concern, and it is in the report and 
also in the GAO report that preceded this. There are many 
strategies and coordination efforts ongoing. There is no one 
organization that is coordinating restoration efforts. And 
during the collaboration discussion at one point I argued for a 
Great Lakes czar, it is a favorite term around here, even 
though it comes from another country. That of course is not 
included.
    But I want to ask you, any of you who wish to respond, 
where is the locus of direction coming from? I know you are 
working together, but is there some overarching direction 
coming from one agency or another? I will open that to anyone. 
Mr. Grumbles.
    Mr. Grumbles. I would like to mention a couple of things, 
Congressman. One of them, there is a tremendous amount of 
effort and collaboration and there will be progress, continued 
progress in implementing the Great Lakes Regional 
Collaboration. In our EPA, because of the President's executive 
order and history of the Great Lakes National Program Office, I 
think we are in a position through the Administrator and also 
through Gary Gulezian, who has been designated within the EPA 
organization as the czar to manage progress on the regional 
collaboration.
    The other point to make, though, Congressman, as you know, 
probably better than anyone, there are other forums and 
mechanisms, too, particularly the international one. And our 
partners in Canada are very much a part of the Great Lakes 
Water Quality Agreement and the review process. That is equally 
important and provides an opportunity to coordinate actions on 
an international level, whereas this Great Lakes Regional 
Collaboration is more of what can we do among the Federal 
agencies and working with our partners.
    But we do recognize, as you stated, the importance of 
having some accountability and a focal point to help measure 
and monitor for progress.
    Mr. Ehlers. I appreciate your doing that. Because my 
reading of Section 118 of the Clean Water Act clearly gives the 
EPA the authority to do it. And I just want to emphasize, I 
think it is extremely important for you to do that.
    Yes, Mayor?
    Mayor Becker. Thank you, Congressman. I agree. I think all 
parties to the Collaboration need to make a more significant 
commitment to the implementation from the top leadership on 
down. If you don't have the senior leadership involved, it is 
very hard to move it forward.
    One of the things we would like to see is that there would 
be a much clearer set of expectations of actions and some sort 
of time line. One of the things I always do with my staff 
before we leave a meeting is who is going to do what and when 
are you going to get it done. And I understand this is a much 
bigger project than most.
    But if you don't have specific things laid out and set up 
to do, it is very hard to do. The more agencies you have, the 
harder it is. I would very much support having a Great Lakes 
czar. One of the things the mayors' group did, there used to be 
the Great Lakes Cities Initiative and the International 
Association of Mayors. We merged that, we had basically two 
groups of mayors doing the same thing. Not that would ever 
happen in the Federal bureaucracy, I am sure.
    But we merged them into one to make our voices as one, to 
have one agenda to drive forward. So any time we can get 
specific things with time lines, I think you have much more 
ability to hold people accountable for moving the Collaboration 
Strategy forward.
    Mr. Ehlers. Thank you very much. I was hoping that was 
developing and I have heard areas that it is developing. I am 
glad to hear that it is that extensive.
    One last point I want to make is, so that we can continue 
this, and I always think long-term, the bill that I have 
authored, people are swallowing hard at $20 billion, et cetera. 
That is a press-generated figure. The point is simply, we are 
not asking for a $20 billion authorization. But two years from 
now, we are going to have a new President. The President is 
going to appoint new administrators to the EPA and other 
agencies. I want to make sure that this continues on and that 
the pattern is in statute and developed, so that it will be a 
blueprint for the ages, not just for the Bush Administration.
    So I am very interested, Mr. Chairman, in having my bill 
come out. And I recognize we are not going to get all that 
money all at once. That is fine with me. We have to take it 
bits and pieces. But we have to establish that pattern for the 
future. That is the whole purpose of my writing the bill. Not 
changing what the Collaboration has come up with, but just 
instituting it in statute so that it is going to be there for 
the future as well.
    I thank you very much, and thank you, Mr. Chairman, for 
your patience.
    Mr. Duncan. Thank you, Dr. Ehlers. Dr. Ehlers has a good 
memory. My Tennessee grandfather was a subsistence farmer and a 
Presbyterian minister. But I heard my father say, and I knew my 
grandfather well, I was in high school when he passed away, but 
I heard my father say Papa Duncan probably never made $100 cash 
money any one month in his life. They had 10 kids and an 
outhouse and not a whole lot more. I did express amazement in 
here, express that I thought my grandfather would have been 
amazed at how much people are paying for bottled water now. 
They pay a lot more than they pay for gasoline, for instance.
    But I will tell you that my other grandfather spent the 
last 28 years of his career as a professor and writer at the 
University of Iowa. He and my grandparents, though, were both 
born and raised in Illinois. They actually had a little tiny 
cabin on Lake Michigan. So I have had a lot of relatives, I had 
an aunt and uncle and three cousins in Wisconsin, aunt and 
uncle and six cousins in Indiana, near Chicago, so I've had a 
lot of people in the region or close to the areas that some of 
you have been discussing here today.
    I thank you very much. To me at least it has been a very 
interesting and informative hearing. I thank you very much for 
taking time out to be with us.
    That will conclude this hearing.
    [Whereupon, at 3:58 p.m., the subcommittee was concluded.]





    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
